   AUDIT REPORT

U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
 New York, Department of
Environmental Conservation,
Division of Fish, Wildlife and
  Marine Resources, from
   April 1, 2000, through
       March 31, 2002




   Report No. R-GR-FWS-0025-2003

                          May 2004
                U
                Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                         Deeppaarrttm
                                                   .
                           OFFICE OF INSPECTOR GENERAL
                                         External Audits
                               12030 Sunrise Valley Drive, Suite 230
                                       Reston, VA 20191

                                                                                           May 6, 2004

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the State of New York, Department of Environmental Conservation,
           Division of Fish, Wildlife and Marine Resources, from April 1, 2000, through March
           31, 2002 (No. R-GR-FWS-0025-2003)

        This report presents the results of our audit of costs incurred by the State of New York,
Department of Environmental Conservation, Division of Fish, Wildlife and Marine Resources
(Division) under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS) for
the period April 1, 2000, through March 31, 2002 (see Appendix 1).

        We found that indirect costs were calculated using negotiated indirect cost rates that did
not limit the costs of central services to three percent of the annual Sport Fish or Wildlife
apportionments, not all report program income was reported, and improvements are needed in
the Division’s annual license certifications and asset management.

        The Department of Environmental Conservation (Department) and FWS Region 5
responded to a draft of this report on March 16, 2004. We modified the findings and
recommendations as necessary to incorporate additional information provided and to clarify the
report. We have added the responses after our recommendations and summarized the status of
the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by August 6, 2004, to the unresolved and unimplemented recommendations
included in this report. Your response should include information on actions taken or planned,
including target dates and titles of officials responsible for implementation. If you have any
questions regarding this report, please contact me or Mr. Owen Nicholson, Audit Team Leader,
at 703-487-5345.

cc:     Regional Director, Region 5, U.S. Fish and Wildlife Service
                 IIN
                   NTTR
                      ROOD
                         DUUC
                            CTTIIO
                                 ONN

             The Pittman-Robertson Wildlife Restoration Act, as amended (16
Background   U.S.C. 669), and the Dingell-Johnson Sport Fish Restoration Act,
and Scope    as amended (16 U.S.C. 777) (the Acts), authorize FWS to provide
             Federal Assistance grants to states to enhance their sport fish and
             wildlife programs. The Acts provide for FWS to reimburse the
             states up to 75 percent of the eligible costs incurred under the
             grants. The Acts specify that state hunting and fishing license
             revenues cannot be used for any purpose other than the
             administration of the state’s fish and game agencies.

             We performed an audit of Federal Assistance grants to the State
             of New York as requested by FWS. The objective of our audit
             was to evaluate: (1) the adequacy of the Division’s accounting
             system and related internal controls; (2) the accuracy and
             eligibility of the direct and indirect costs claimed under the
             Federal Assistance grant agreements with FWS; (3) the adequacy
             and reliability of the Division’s hunting and fishing license fee
             collection and disbursement process; (4) the adequacy of the
             Division’s asset management system and related internal controls
             with regard to purchasing, control and disposal; and (5) the
             adequacy of the Division’s compliance with the Acts’ assent
             legislation requirements. The audit also included an analysis of
             other issues considered sensitive and/or significant by the FWS.
             The audit work at the Division included claims that totaled
             approximately $36 million on FWS grants that were open during
             the State’s fiscal years ended March 31, 2001, and 2002 (see
             Appendix 1).

             Our audit was performed in accordance with government auditing
             standards issued by the Comptroller General of the United States.
             Accordingly, we included such tests of records and other auditing
             procedures that we considered necessary under the
             circumstances. We relied on the work of the State of New York
             Single Audit Report auditors to the extent possible in order to
             avoid a duplication of audit effort. Our tests included an
             examination of evidence supporting selected expenditures
             charged by the Division to the grants; interviews with employees
             to ensure that personnel costs charged to the grants were
             supportable; and a review of the Division's use of fishing and
             hunting license revenues to determine whether the revenues had
             been used for program purposes. We did not evaluate the
             economy, efficiency, and effectiveness of the Division’s
             operations.


                               2
              Our audit was performed at the New York Division of Fish,
              Wildlife and Marine Resources headquarters in Albany, New
              York. We also visited several wildlife management areas,
              hatcheries, and boat ramps (see Appendix 2).

              In September 1998, we issued audit report No. 98-E-681, “Audit
Prior Audit   of U.S. Fish and Wildlife Service Federal Aid Grants to the State
Coverage      of New York, Department of Environmental Conservation,
              Division of Fish, Wildlife and Marine Resources, for Fiscal
              Years Ended March 31, 1995, and 1996.”

              We reviewed this report and followed up on all significant
              findings to determine whether they had been resolved prior to our
              review. One finding in this report, relating to asset management,
              was previously reported and had not been addressed
              satisfactorily.




                                3
                     R
                     REESSU
                          ULLTTSS O
                                  OFF A
                                      AUUD
                                         DIITT

                    Except for the issues identified below, the Division’s accounting
Summary             system accurately accumulated grant expenditures; direct and
                    indirect costs were accurately reported; license fee receipts and
                    disbursements were used for fish and wildlife purposes; and the
                    hunting and fishing license certifications accurately reported
                    license holders. The State also had adequate legislation that
                    assented to the provisions of the Acts and prohibited the use of
                    license fees for anything other than the administration of the
                    Division.

                    We found that the Division:

                            Claimed costs of $394,315 (Federal share) pertaining
                             to indirect costs calculated using negotiated indirect
                             cost rates that did not limit costs of central services to
                             three percent of the annual Sport Fish or Wildlife
                             apportionments.

                            Did not report program income of $980,616.

                            Needed to make improvements in the annual license
                             certifications and asset management.

                    The Division applied indirect cost rates negotiated with the U. S.
A. Indirect Costs   Environmental Protection Agency (EPA) to calculate indirect
                    costs for Federal Assistance grants. Each year, the Department
                    submitted an Indirect Cost Proposal to the EPA detailing the
                    basis of the proposed indirect rate. After the rate was negotiated,
                    it was applied to all of the Department’s Federal agreements,
                    subject to statute. Our review of the proposals indicated that the
                    central services costs included in the rate were not limited to
                    three percent of the annual Sport Fish or Wildlife
                    apportionments.

                    The Sport Fish Restoration Act and the Wildlife Restoration Act
                    require that costs of central services outside the State fish and
                    game department applied to Federal Assistance grants be limited
                    to three percent of the annual apportionments under each Act.
                    OMB Circular A-87, Attachment E, Section c 4 (b) states:

                           “…there are some Federal statutes which restrict
                           the reimbursement of certain indirect costs.
                           Where such restrictions exist, it may be necessary



                                      4
                         to develop a special rate for the affected award.
                         Where a “restricted rate” is required, the
                         procedure for developing a non-restricted rate will
                         be used except for the additional step of the
                         elimination from the indirect cost pool those costs
                         for which the law prohibits reimbursement.”

                  The Department officials who prepared the Indirect Cost
                  Proposals were unaware of the requirements of the Sport Fish
                  and Wildlife Restoration Acts pertaining to the allocation of
                  central services costs. As a result, $668,504 of unallowable
                  indirect costs was claimed under Federal Assistance grants for
                  State fiscal years 2001 and 2002, of which $394,315 was
                  reimbursed as the Federal share.

Recommendations   We recommend that FWS:

                     1. Resolve the $394,315 of questioned costs.

                     2. Ensure that the Department adjusts the indirect cost rates
                        applied to Federal Assistance grants limiting the costs of
                        central services to three percent of the annual Sport Fish
                        and Wildlife apportionments.

                     3. Work with the Department to ensure that a restricted
                        indirect cost rate is negotiated with the cognizant Federal
                        agency for use in Sport Fish and Wildlife Federal
                        Assistance grants.

Department        The Department did not concur with the finding and
Response          recommendations. Its response stated that a basic tenant of all
                  cost allocation plans is the equitable distribution of costs and
                  cited 50 CFR 80.15(c). The Statewide Cost Allocation Plan
                  allocated costs incurred by the State’s central service support
                  agencies to the remaining agencies (which included the
                  Department) based on a methodology accepted and approved by
                  the Federal government. It is impossible for these costs to be
                  accumulated for each division (such as the Division of Fish,
                  Wildlife and Marine Resources). The Department explained that
                  since it is the State’s fish and wildlife agency, only the
                  Department is eligible to receive Federal Assistance grants and
                  added that limiting central agency costs on those grants to three
                  percent of the annual apportionments is inappropriate since it
                  violates the equitable distribution of costs required by 50 CFR
                  80.15(c). The response also took issue with the manner in which
                  the questioned indirect costs were calculated.




                                    5
  FWS               FWS did not comment on the finding and recommendations.
  Response

  OIG               Indirect costs for State central services outside of the State fish
  Comments          and wildlife agency, according to 50 CFR 80.15(d), must be in
                    accord with an approved cost allocation plan and shall not
                    exceed three percent of the annual apportionment. The State
                    identified what agency would be the state fish and wildlife
                    agency for purposes of obtaining Federal Assistance grants
                    through the Sport Fish and Wildlife Restoration Acts. If the
                    State had defined the Division as the state fish and wildlife
                    agency for Federal Assistance purposes, central service costs
                    incurred outside of the State fish and wildlife agency may not
                    have exceeded three percent of the apportionment.

                    Allowable costs, according to 50 CFR 80.15 should comply with
                    the cost principles of OMB Circular A-87. OMB Circular A-87
                    contained the guidance we used to develop the amount of
                    questioned costs.

                    FWS should address the finding and recommendations in the
                    corrective action plan.

                    The Division earned $980,616 in revenue generated on wildlife
B. Program Income   management areas receiving Federal Assistance funds for their
                    operation and maintenance. Sources of the revenue were timber
                    sales, agriculture and local sales. These revenues were not
                    identified as program income in Grants WE-173-G-12 and WE-
                    173-G-13 or reported on the respective Financial Status Reports,
                    SF-269s.

                                     Schedule of Unreported Program Income

                                       WE-173-G-12      WE-173-G-13           Totals
                      Timber Sales         $819,000          $ 97,968        $916,968
                      Agriculture             41,441           12,687          54,128
                      Local Sales              2,229            7,291           9,520
                      Totals               $862,670         $117,946         $980,616



                    According to 43 CFR § 12.65, program income is gross income
                    received by a grantee directly generated by a grant-supported
                    activity. Program income should be deducted from total grant
                    costs to determine net costs on which the grantor’s share will be
                    based, or added to the project funds to further eligible program
                    objectives. In addition, the grant agreement should identify the




                                       6
                    estimated amounts, sources, and method of accounting for the
                    program income.

                    While the Division reported revenue earned on wildlife
                    management areas where Federal Assistance funds were used to
                    acquire the land, the Division was unaware of requirements
                    regarding program income earned on wildlife management areas
                    receiving Federal Assistance funds for their operation and
                    maintenance.

  Recommendations   We recommend that FWS:

                       1. Resolve the issue of the $980,616 of unreported program
                          income.

                       2. Assist the Division in training its staff to ensure proper
                          reporting of program income in future grants.

  Department        The Department did not concur with the finding and took issue
  Response          with the amount of unreported program income, stating that the
                    total should be $882,398. The Department stated that FWS staff
                    indicated that program income need only be reported on lands
                    acquired with Federal Assistance. The response also cited
                    contradictions in program income reporting requirements
                    described in the draft guidance prepared by the Joint
                    State/Federal Task Force on Federal Assistance Policy. The
                    Department indicated that Financial Status Reports filed for
                    grants WE-173-G-12 and WE-173-G-13 show cost overruns of
                    $982,308 and $1,327,534 respectively, which would offset any
                    unreported program income.

  FWS               FWS did not comment on the finding and recommendations.
  Response

  OIG               We consider the finding unresolved. FWS should address the
  Comments          finding and recommendations in the corrective action plan.

                    The Division completed and submitted annual License
C. Annual License   Certifications for license years (LYs) 2000 and 2001. In
Certifications      preparing the annual license certifications, the Division used
                    rates based on data not representative of statewide license sales
                    to eliminate duplicate license holders. The rates used were
                    generated from computerized files located at the headquarters
                    sales office in Albany, NY, which contained LY 1996 license
                    sales information only for licenses sold at that location and
                    through the mail. This location was one of 1600 sales outlets
                    statewide and Division personnel estimated that the duplication



                                      7
                   rates were derived from the 27,000 license holders at this
                   location, or 1.8 percent of the 1.5 million total state license
                   holders.

                   According to 50 CFR § 80.10(c)(5) the state fish and wildlife
                   director, in certifying license information to the Director, is
                   responsible for eliminating duplication or multiple counting of
                   single individuals in the figures certified. Sampling and other
                   statistical techniques may be utilized by the certifying officer for
                   this purpose. The Division used this data because it was easily
                   acquired and it was believed to be representative.

                   Since the rates used for eliminating duplication or multiple
                   counting of single license holders were not representative of
                   statewide license sales, the number of licenses certified in LYs
                   2000 and 2001 may be inaccurate.

  Recommendation   We recommend that FWS ensure that Division personnel
                   preparing the license certifications use valid and representative
                   sampling or other statistical techniques to eliminate the number
                   of duplicate license holders.

  Department       The Department did not concur with the finding, stating that
  Response         using the database at its central office was more than adequate to
                   determine duplication rates with a high degree of precision. It
                   added that starting with license year October 2002, the
                   Department will be using a new statewide automated licensing
                   system to prepare the Annual License Certification and statistical
                   techniques will not be used.

  FWS              FWS did not comment on the finding and recommendation.
  Response

  OIG              The Department’s action to implement a statewide automated
  Comments         licensing system may resolve this issue. FWS should address the
                   finding and recommendation in the corrective action plan.

                   The Department of Environmental Conservation’s Property
D. Asset           Management Unit (Unit) is responsible for managing all personal
Management         property, except fleet vehicles, for the Department, including the
                   Division. The inventory database maintained by the Unit does
                   not identify property by funding source. Therefore, property
                   purchased with Federal Assistance funds could not be readily
                   identified. Federal Assistance property must be used only for
                   Federal Assistance activities and must be identified and
                   controlled in order to properly manage the property in
                   accordance with the requirements in 50 CFR § 80.18. Division



                                      8
                  and Unit officials indicated that while the funding source is
                  recorded on purchase documents, it is not recorded in the
                  property inventory database. Because the Department did not
                  identify the funding source in its inventory database and because
                  the Division did not control Federal Assistance personal
                  property, we could not determine whether Federal Assistance
                  property was being used for the purpose for which it was
                  originally acquired.

                  As reported in the previous audit report, the Unit has not
                  completed the annual verification and certification of formally
                  controlled property since 1991. The Department of
                  Environmental Conservation’s Property Management System
                  Policies and Procedures Manual (dated June 1995) provides the
                  framework for the management of all the Department’s assets.
                  Section 4.4 of the Manual and Property Management Bulletin
                  PM #12 describe the verification and certification process.
                  Verification of all formally controlled property should be
                  completed annually by a “hands on” physical count based on a
                  written schedule submitted by regional and program directors
                  and approved by the Unit. Certification of the completed annual
                  physical count should be done in writing by regional and
                  program directors for all accountable organizations under their
                  supervision. Personal property requiring formal control includes
                  items of significant value with long useful lives or special control
                  concerns such as furniture, cameras, computers, and computer
                  software.

                  The property management responsibilities are performed
                  substantially by one employee of the Unit, who cannot ensure
                  that all Property Management System operational requirements
                  are followed. As a result, there is no assurance that the database
                  of formally controlled property is accurate because it has not
                  been updated based on the results of annual physical inventories.
                  As a result, property acquired with Federal Assistance funds or
                  license fees cannot be verified.

Recommendations   We recommend that FWS require the Division to:

                     1. Account for and control Federal Assistance property in a
                        manner to assure that it is used for the purpose for which
                        it was acquired.

                     2. Follow its operational requirements for the management
                        and control of property acquired with Federal Assistance
                        and license fee funds by conducting the annual
                        verification and certification process.



                                    9
Department   The Department stated that it will examine ways in which it can
Response     implement the recommendations.

FWS          FWS did not comment on the finding and recommendations.
Response

OIG          The Department’s action is appropriate. FWS should address the
Comments     finding and recommendations in the corrective action plan.




                              10
                                                                                   APPENDIX 1



                 NEW YORK DIVISION OF FISH, WILDLIFE
                      AND MARINE RESOURCES
              FINANCIAL SUMMARY OF REVIEW COVERAGE

         Grant               Grant            Claimed                Questioned Costs
        Number              Amount             Costs              Total         Federal Share
  F-38-D-14              $1,468,331         $1,149,483          $17,477              $6,991
  F-38-D-15                 750,323            750,323           15,009               9,408
  F-46-D-1                1,000,000          1,000,000                0                   0
  F-48-R-1                3,163,033          2,897,227           48,170              36,127
  F-48-R-2                5,485,803          5,485,802          107,725              40,688
  F-49-R-1                2,492,379          2,492,379           49,707              37,280
  F-49-R-2                3,472,157          3,472,157           57,762              43,322
  F-50-E-1                  411,335            349,075            2,395               1,796
  F-50-E-2                  346,667            421,766            3,969               2,350
  F-51-D-1                  566,667                  0                0                   0
  F-52-D-1                1,665,942            980,193            2,610                 929
  FW-47-T-25              1,452,297          1,452,297           49,129              22,789
  FW-47-T-26              1,465,528          1,465,528           61,468              25,321
  R-1-1                     616,700            218,213            3,587               2,691
  R-2-1                   1,305,412             25,514              481                 360
  R-3-1                   1,186,679            221,367            3,792               2,806
  W-125-S-30              1,168,055          1,109,023           14,090               7,321
  W-125-S-31              1,458,099          1,329,002           17,259              12,677
  WE-173-G-12             6,330,515          6,330,515          107,377              80,533
  WE-173-G-13             4,358,645          4,358,645          106,497              60,926
    Totals              $40,164,567        $35,508,509         $668,504           $394,315


Note:

All amounts questioned pertain to indirect costs that were claimed using negotiated indirect cost
rates that did not limit costs of central services to three percent of the annual Sport Fish or
Wildlife apportionments (see Finding A., Indirect Costs).




                                               11
                                                                     APPENDIX 2



               NEW YORK DIVISION OF FISH, WILDLIFE
                    AND MARINE RESOURCES
                         SITES VISITED


Fishing/Boating Access                        Wildlife Management Areas
    Bemus Point                                   David Sanroff Pine Barrens
   Black Creek Boat Launch                        Deer Creek Marsh
   Carmans River                                  Happy Valley
   Cattaraugus Creek-Sunset Bay                   Hi-Tor
   Conesus Lake Fishing Access No. 1              Little John
   Conesus Lake Fishing Access No. 2              Otis Pike
   Eaton Brook Reservoir                          Rocky Point
   Edwards Avenue Boating Access                  Tillman Road
   Forge Pond Boating Access                      Tonawanda
   Genesee River Boat Launch No. 1                Westhampton
   Genesee River Boat Launch No. 2
   Lebanon Reservoir
   Long Pond                                  Fish Hatcheries
   Lower Peconic River Boating Access             Caledonia Hatchery
   Madison Reservoir                              Chautauqua Hatchery
   Moriches Bay Waterway Boating Access           Oneida Hatchery
   Oatka Boat Launch                              South Otselic Hatchery
   Oneida Lake, South Shore
   Ponquogue Bridge Fishing Access
   Skaneateles Lake
   Smith Point County Marina Boating Access
   Upper Lelunds Pond
   West River Fishing Access
   West River #2
   Woodville Boat Launch




                                        12
                                                                                APPENDIX 3



                        STATUS OF AUDIT FINDINGS
                         AND RECOMMENDATIONS


  Recommendation                     Status                      Action Required
A.1, A.2, A.3, B.1, B.2, C,   Finding unresolved and   Provide a response to the recommendation
D.1 and D.2                   Recommendation           that states concurrence or non-
                              Unimplemented.           concurrence. Provide a corrective action
                                                       plan that includes the target date and the
                                                       official responsible for implementation of
                                                       the recommendation or an alternative
                                                       solution. Unresolved findings and
                                                       unimplemented recommendations
                                                       remaining at the end of 90 days (after
                                                       August 6, 2004) will be referred to the
                                                       Assistant Secretary of PMB for resolution
                                                       and/or tracking of implementation.




                                              13
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
